       FEDERAL ELECTION COMMISSION 


        OFFICE OF INSPECTOR GENERAL 





                  FINAL REPORT 


2007 Performance Audit of Privacy and Data Protection 





                   December 2007 


             ASSIGNMENT No. OIG-07-02 

                      FEDERAL ELECTION COMMISSION
                      WASHINGTON, D.C. 20463
                      Office of Inspector General



MEMORANDUM


TO:               The Commission

FROM:             Inspector General

SUBJECT:          2007 Performance Audit of Privacy and Data Protection

DATE:             December 7, 2007

The Office of Inspector General (OIG) of the Federal Election Commission (FEC) contracted
with Cotton & Company, LLP to conduct a performance audit of privacy and data protection
policies and procedures and, specifically, to determine whether the FEC is complying with
Section 522 of the Consolidated Appropriations Act, 2005 (42 U.S.C.A. § 2000ee-2). Section
522 requires an independent third-party review of the agency’s use of personally identifiable
information (PII)1 and of its privacy and data protection policies and procedures at least every
two years; this audit satisfies the required third-party review.

Audit Findings and Recommendations
The report contains recommendations to address weaknesses found by the auditors. The auditors
reported seven separate findings and provided thirteen recommendations for improving privacy
practices at the FEC. A table summarizing the findings and recommendations is included on page
two of the report on the 2007 Performance Audit of Privacy and Data Protection prepared by
Cotton & Company. Management was provided a draft copy of the audit report for comment and
generally concurred with the findings and recommendations. Management agreed with five
findings but did not agree with the following two findings and the corresponding
recommendations:

      	 Finding 4 - Privacy Roles and Responsibilities Are Not Adequately Documented (pages
         15 through 17 of the audit report)

      	 Finding 6 - Privacy Impact Assessments Have Not Been Conducted (pages 19 – 20)

Management prepared a narrative response to all findings and recommendations presented in the
report; the management response is included in Attachment 1 of the report, beginning on page 22.
Based on management’s response, Cotton & Company prepared additional responses for the two
findings where management agreement was not reached; refer to pages 17 and 20 of the report.

The OIG agrees with all findings and recommendations presented by the auditors and the OIG
believes the FEC’s implementation of the independent auditor’s recommendations will enable the
FEC to reach an appropriate level of compliance with respect to privacy practices.

1
 See Attachment III of the audit report for a definition of personally identifiable information (PII) and
other terminology contained in the audit report.
Audit Follow-up
In accordance with Office of Management and Budget (OMB) Circular No. A-50, Audit Follow-
up, revised, the FEC should develop a corrective action plan to set forth the specific action
planned to implement the recommendations and the schedule for implementation. In addition, the
OIG’s Internal Audit Process specifies the corrective action plan, detailing planned
implementation activities and dates, is due to the OIG within 30 days of receipt of this report.
Lastly, FEC Directive 50, Audit Follow-up, states the Staff Director will recommend, and the
Commission will approve, the audit follow-up official. Due to the Commission-wide
implications of the audit recommendations, and the fact that management did not concur with all
audit recommendations presented by Cotton & Company, the OIG recommends the Staff Director
act as the audit follow-up official (AFO) for the audit.

As part of the OIG’s audit contract with Cotton & Company, the agreement provides for a post-
audit presentation with FEC officials to further expand on the findings and recommendations
contained in the report. The presentation should be scheduled with the OIG and delivered prior to
February 28, 2008. The AFO and/or Commissioners may wish to exercise this option in order to
gain a further understanding of the findings and recommendations, in particular where
management agreement was not reached. The post-audit meeting could be an opportunity to
further the FEC’s understanding of the audit findings, to include federal government privacy
requirements, potential control frameworks, and tangible methods of improving privacy practices
throughout the agency.

OIG Evaluation of Cotton & Company, LLP Audit Performance
In connection with the OIG’s contract with Cotton & Company, we reviewed Cotton &
Company’s report and related documentation and inquired of its representatives. Cotton &
Company is responsible for the attached auditor's report and the conclusions expressed in the
report. The OIG’s monitoring and review of Cotton & Company’s work disclosed no instances
where Cotton & Company did not comply, in all material respects, with generally accepted
government auditing standards (GAGAS).

We appreciate the courtesies and cooperation extended to Cotton & Company and the OIG staff
during the audit. If you should have any questions concerning the audit report, please contact my
office on (202) 694-1015.




                                                        Lynne A. McFarland
                                                        Inspector General

Attachments

Cc:     	Staff Director
        General Counsel
        Associate General Counsel for Law and Advice
        Chief Information Officer
        Director of Human Resources




                                                2

                                          2007 

                                 PERFORMANCE AUDIT OF 

                              PRIVACY AND DATA PROTECTION


                              FEDERAL ELECTION COMMISSION


                              AUDIT REPORT NUMBER OIG-07-02




Cotton & Company LLP
Auditors · Advisors
635 Slaters Lane, 4th Floor
Alexandria, Virginia 22314
703.836.6701
www.cottoncpa.com
December 7, 2007


Ms. Lynne A. McFarland
Inspector General
Federal Election Commission
999 E Street, NW
Washington, DC 20463

Subject:        Report on the 2007 Performance Audit of the Federal Election Commission’s
                Compliance with Section 522 of the Consolidated Appropriations Act, 2005 (42 U.S.C.A.
                § 2000ee-2)

Dear Ms. McFarland:

In accordance with terms of the subject task order, Cotton & Company LLP conducted a performance
audit of privacy and data protection policies and procedures used by the Federal Election Commission
(FEC). The audit included assessing compliance with applicable federal security and privacy laws and
regulations as well as a review of the FEC’s policies and procedures related to identifying and securing
privacy-related data.

We interviewed key personnel involved in identifying and protecting personally identifiable information
and reviewed documentation supporting the FEC’s efforts to comply with federal privacy and security
laws and regulations. We identified specific control weaknesses and deficiencies and developed
recommendations designed to improve FEC compliance with federal privacy and security laws and
regulations.

We conducted the performance audit in accordance with Government Auditing Standards. We were not
engaged to and did not perform a financial statement audit, the purpose of which would be to express an
opinion on specified elements, accounts, or items. This report is intended to meet the objectives described
above and should not be used for other purposes.

We appreciate the opportunity to have worked with the FEC. Please call me if you have questions.

Very truly yours,

COTTON & COMPANY LLP




Loren F. Schwartz, CPA, CISA, CIPP
Partner
                                           CONTENTS

Section 	                                                                                 Page
Executive Summary                                                                            1

Background                                                                                   4

     Federal Election Commission                                                             4

     Federal Privacy Framework                                                               6

Objectives, Scope and Methodology                                                            8

Detailed Findings and Recommendations                                                       10

     1. 	 A Comprehensive Inventory of Personally Identifiable Information Has Not Been     10

          Documented

     2. Safeguards Over Sensitive Personally Identifiable Information Need Improvement      12

     3. Privacy Policies and Procedures Have Not Been Approved and Implemented              14

     4. Privacy Roles and Responsibilities Are Not Adequately Documented 	                  15

     5. Privacy Training Has Not Been Provided to FEC Employees and Contractors             17

     6. Privacy Impact Assessments Have Not Been Conducted 	                                19

     7. Personnel Have Not Complied with FEC Computer Security Policy	                      21


Attachments
1 Management’s Response to Draft Report                                                     22

2 Status of Prior-Year Privacy Findings and Recommendations                                 28

3 Definitions                                                                               31

                                                  2007 

                                         PERFORMANCE AUDIT OF 

                                      PRIVACY AND DATA PROTECTION


                                     FEDERAL ELECTION COMMISSION


The Office of Inspector General (OIG) of the Federal Election Commission (FEC) contracted with Cotton
& Company LLP to conduct a performance audit of privacy and data protection policies and procedures
and, specifically, to determine if the FEC is complying with section 522 of the Consolidated
Appropriations Act, 20051 (hereafter referred to as Section 522). This report is organized into the
following sections:

         •        Executive Summary
         •        Background
         •        Objectives, Scope and Methodology
         •        Detailed Findings and Recommendations

EXECUTIVE SUMMARY

Section 522 requires certain agencies to assign a Chief Privacy Officer (CPO) who is responsible for
identifying and safeguarding personally identifiable information (PII)2. Section 522 also requires an
independent third-party review of agency use of PII and of its privacy and data protection policies and
procedures at least every two years. This audit satisfies the required third-party review.

We provided a draft of this report to the FEC for comment. In addition, we met with FEC officials to
discuss report findings and recommendations. The FEC’s response is included as Attachment 1 to this
report.

The FEC has made progress in addressing previously identified privacy weaknesses. Of the thirteen
prior-year recommendations in the OIG’s 2006 Inspection Report on Personally Identifiable Information,
seven were closed as of our report date. The status of specific prior-year findings and recommendations
is summarized in Attachment 2.

Our audit of the FEC’s information privacy practices determined that, while progress has been made,
significant additional work is still necessary to ensure that controls around PII in both paper and
electronic form are implemented. Our findings and recommendations are summarized on the following
page.




1
  42 U.S.C.A. § 2000ee-2. 

2
  See Attachment 3 for a definition of personally identifiable information (PII) and other terminology contained in

this report. 

                                                        1

Findings                                                  Recommendations

1.    A Comprehensive Inventory of Personally             We recommend that the Chief Privacy Officer:
      Identifiable Information Has Not Been               1a. Conduct a comprehensive review to identify and document all PII collected,
      Documented                                              processed, and stored within the FEC.
                                                          1b. Develop, document, and implement procedures for periodically updating
                                                              the FEC’s inventory of PII.


2.    Safeguards Over Sensitive Personally Identifiable   We recommend that the Chief Privacy Officer:
      Information Need Improvement                        2a. Develop and implement a comprehensive data management framework to
                                                              ensure that sensitive PII in both hard copy and electronic format is
                                                              adequately identified (including its location within the FEC), secured, and
                                                              properly disposed of when no longer needed.
                                                          2b. Develop a policy and procedures to ensure that the FEC’s PII maintained or
                                                              processed by third parties is adequately protected from unauthorized use or
                                                              disclosure.


3.    Privacy Policies and Procedures Have Not Been       3.   We recommend that the Chief Information Officer finalize, approve, and
      Approved and Implemented                                 fully implement privacy policies, procedures, and directives in accordance
                                                               with federal laws and regulations.


4.    Privacy Roles and Responsibilities Are Not          We recommend that the FEC:
      Adequately Documented                               4a. Consider identifying one individual (position), such as the FEC Staff
                                                              Director, as Chief Privacy Officer.
                                                          4b. Assign privacy roles and responsibilities to specific positions. In the event
                                                              that the FEC continues with shared CPO and SAOP responsibilities, clearly
                                                              delineate roles and responsibilities among individuals sharing these
                                                              positions.
                                                          4c. Identify, document, and assign roles and responsibilities for monitoring
                                                              compliance with federal and FEC privacy requirements.


5.    Privacy Training Has Not Been Provided to FEC       5.   We recommend that the Chief Privacy Officer develop and implement
      Employees and Contractors                                privacy training for all FEC employees and contractors to ensure that
                                                               personnel understand their privacy roles and responsibilities.


6.    Privacy Impact Assessments Have Not Been            We recommend that the FEC:
      Conducted                                           6a. Identify and implement a governance framework to ensure that controls
                                                              within the FEC are appropriately identified, documented, and implemented.

                                                          We recommend that the Chief Privacy Officer:
                                                          6b. Conduct privacy impact assessments in accordance with Section 522.
                                                          6c. Comply with OMB memorandums or, in the event of statutory exemption,
                                                              document that sufficient controls exist to mitigate the need to comply.
                                                              Where compliance is not adopted as the result of resource constraints,
                                                              document the legal assessment, risk analysis, and cost-benefit to the FEC.


7.    Personnel Have Not Complied with the FEC            7.   We recommend that the Chief Information Officer take necessary steps to
      Computer Security Policy                                 ensure user compliance with FEC IT security policies and procedures.




                                                                2

The conditions represented by these findings appear to result from two primary causes:

        •       Lack of ownership over privacy within the FEC.
        •       Lack of an overall risk-based compliance and governance framework at the FEC.

First, without a single point of privacy ownership, there appears to be little urgency or accountability for
moving forward with strong privacy practices. FEC privacy is co-owned by two individuals, and it is
unclear who is responsible for specific management actions related to privacy. Best practice would assign
a single member of management as owner for privacy and have that owner rely on other resources, as
needed, to assist in legal or information technology matters.

Office of Management and Budget (OMB) Memorandum M-05-08, Designation of Senior Agency
Officials for Privacy, states the following:

        In furtherance of the Administration’s commitment to protecting information privacy, OMB is
        today asking each executive Department and agency (“agency”) to identify to OMB the senior
        official who has the overall agency-wide responsibility for information privacy issues. Consistent
        with the Paperwork Reduction Act, the agency’s Chief Information Officer (CIO) may perform
        this role. Alternatively, if the CIO, for some reason, is not designated, the agency may have
        designated another senior official (at the Assistant Secretary or equivalent level) with agency-
        wide responsibility for information privacy issues. In any case, the senior agency official should
        have authority within the agency to consider information privacy policy issues at a national and
        agency-wide level.

        The senior agency official will have overall responsibility and accountability for ensuring
        the agency’s implementation of information privacy protections, including the agency’s
        full compliance with federal laws, regulations, and policies relating to information
        privacy, such as the Privacy Act. As is required by the Privacy Act, the Federal
        Information Security Management Act (FISMA), and other laws and policies, each
        agency must take appropriate steps necessary to protect personal information from
        unauthorized use, access, disclosure or sharing, and to protect associated information
        systems from unauthorized access, modification, disruption or destruction. Agencies are
        required to maintain appropriate documentation regarding their compliance with
        information privacy laws, regulations, and policies. And, agencies have the authority to
        conduct periodic reviews (e.g., as part of their annual FISMA reviews) to promptly
        identify deficiencies, weaknesses, or risks. When compliance issues are identified,
        agencies are obligated to take appropriate steps to remedy them.

While OMB has suggested that the Chief Information Officer (CIO) may be designated as the Senior
Agency Official for Privacy (SAOP), the FEC may be better served by having an individual in an
operational senior management position (the FEC Staff Director for example) serving as the SAOP.
The Staff Director position would have knowledge of operational issues within the FEC to make better
risk-based decisions related to privacy and have authority to implement and enforce those decisions once
they are made.

The lack of a risk-based compliance and governance framework at the FEC appears to be the second
cause underlying the seven findings listed above, and a contributing cause for other internal control
weaknesses previously reported by the FEC’s Inspector General3. The FEC’s Office of General Counsel
(OGC) opined in September 2004 on the FEC’s exemption from several important federal laws,
regulations, and standards related to management controls and procedures for information technology (IT)

3
 Federal Election Commission Performance and Accountability Report, Fiscal Year 2004, Inspector General
Assessment of Major Performance and Management Challenges, pages 111-115.
http://www.fec.gov/pages/budget/fy2004/par_2004.pdf.
                                                    3

security. The basis for the exemption was primarily due to the FEC’s exemption from the Paperwork
Reduction Act (PRA), an act generally unrelated to IT security. Most federal IT security laws and
regulations, such as the Computer Security Act of 1987, as amended, derive their authority from the PRA
or other laws from which the FEC is exempt.

Specifically, the FEC’s OGC concluded that the FEC was exempt from the Computer Security Act of
1987, a law that established minimum acceptable security practices for federal computer systems. In
addition, the FEC was not required to follow Federal Information Processing Standards (FIPS) issued by
the National Institute of Standards and Technology (NIST). FIPS are standards and guidelines pertaining
to federal computer requirements. Finally, the FEC was exempt from the Federal Information Security
Management Act (FISMA), a law followed by a majority of both small and large federal agencies and
departments to provide information security for their operations and assets.

FEC decisions on whether to adhere to IT and privacy security federal government guidelines often
appear to be made based on legal interpretations of laws and OMB memorandums, rather than on sound
risk management. This is supported by evaluating the significant legal resources that management
assigned to decision making compared with limited resources for risk management activities. A more
specific example is management’s decision not to perform privacy impact assessments. This decision
was made based on an FEC OGC opinion that the FEC did not legally have to comply with this
requirement, rather than on sound risk management.

Risk-based frameworks, such as those offered by the Committee of Sponsoring Organizations of the
Treadway Commission (COSO, www.coso.org) and Control Objectives for Information and Related
Technology (CobiT, www.isaca.org), present common definitions of internal controls, standards, and
criteria against which companies and organizations can assess their control systems. Within the
Executive Branch of the federal government, NIST has developed a thorough compliance framework
based on risk.

The NIST framework encourages agencies to perform risk assessments and then make internal control
decisions based on those risk assessments. NIST guidance is scalable for agencies both larger and smaller
than the FEC. Adopting a framework, such as the one promulgated by NIST, would help to ensure that
the FEC is adhering to best practice standards and maintaining, at a minimum, the same level of internal
control as the Executive Branch of the federal government. Without a risk-based framework in place,
management’s ability to identify and measure the effectiveness of the FEC’s internal control structure
becomes more difficult.

Other federally appropriated organizations that are exempt from FISMA and NIST guidelines have
formally adopted these requirements as a matter of best practice to help ensure that sound internal
controls are established and followed. In summary, the FEC’s legal exemption from FISMA and NIST
guidance does not preclude the agency from formally adopting a FISMA-NIST based framework as a
matter of best practice and good government.

BACKGROUND

Federal Election Commission

The FEC, an independent federal agency established by the Congress as a Commission, is responsible for
administering and enforcing the Federal Election Campaign Act (FECA), 2 USC § 431. The FEC
administers and enforces FECA through the three core programs of disclosure, compliance, and public
financing.




                                                 4

        •	      Disclosure. Disclosure involves receiving reports of campaign finance transactions by
                candidates and political committees involved in elections for federal office and
                promulgating them as part of the public record.

        •	      Compliance. Compliance involves reviewing and assessing campaign finance
                transactions to ensure that filers abide by appropriate FECA limitations, prohibitions, and
                disclosure requirements. Compliance also involves oversight of individual contributors,
                corporations, labor unions, and “issue” groups that, although they may not fit within the
                universe of filers, can be involved in violations of FECA. The FEC has exclusive
                jurisdiction over civil enforcement of FECA and engages in civil enforcement
                proceedings to resolve instances of noncompliance.

        •	      Public Financing. Public financing is the system for financing Presidential primaries,
                general elections, and national party conventions. Congress designed the program to
                correct campaign finance abuses perceived in the 1972 Presidential electoral process.
                The program combines public funding with limitations on contributions and
                expenditures. The program has three parts: (1) matching funds for primary candidates,
                (2) funds to sponsor political-party Presidential nominating conventions, and (3) funds
                for the general election campaigns of major party nominees and partial funding for
                qualified minor and new party candidates.

                Based on statutory criteria, the FEC determines which candidates and committees are
                eligible for public funds and funding amounts. The U.S. Treasury then makes the
                necessary payments. The FEC audits all committees that received public funds to ensure
                that committees used funds in accordance with the FECA, public funding statutes, and
                FEC regulations. Based on the FEC’s audit findings, Presidential committees may be
                required to make repayments to the U.S. Treasury.

The FEC is headed by six commissioners appointed by the President and confirmed by the Senate.
Commissioners serve six-year terms, and no more than three Commissioners may represent the same
political party. By statute, the Commissioner chairmanship rotates every year, and the designated
chairman has limited authority to set the agency’s agenda.

Under the Commissioners, the FEC’s organizational structure is separated into four primary offices:

        •	      Office of the Staff Director (OSD). OSD is headed by a statutory officer. Subordinate
                organizations to the Staff Director are in most cases called “offices” for staff support
                activities and “divisions” for line activities involved in one or more of the three core
                programs. Programmatic elements under OSD include the Disclosure Division,
                Information Technology, Information Division, Press Office, Reports Analysis Division,
                and Audit Division.

        •	      Office of the General Counsel (OGC). OGC is headed by a statutory officer.
                Subordinate offices to OGC are titled Associate General Counsels, and each supports one
                or more of the three core FEC programs.

        •	      Office of Inspector General (OIG). OIG is headed by a statutory officer, the Inspector
                General, who reports directly to the Commission.

        •	      Chief Financial Officer (CFO). The Office of the CFO is headed by the CFO.
                Subordinate offices include finance, procurement, and budget.

The FEC’s privacy structure consists of a Privacy Officer, Co-Chief Privacy Officers (CPOs), and Co-
Senior Agency Officials for Privacy (SAOP). The Privacy Officer position is held by the Associate
                                                  5

General Counsel (GC) for General Law and Advice (GLA), while the CPO and SAOP positions are
shared by the GC GLA and Chief Information Officer (CIO). Responsibilities for privacy are separated
into two areas, legal and technical; GC GLA handles legal issues, and the CIO handles technical issues.

Federal Privacy Framework

Privacy in the federal government is rooted in passage of the Privacy Act of 1974. Congress enacted the
Privacy Act based on its understanding that:

1.	     The privacy of an individual is directly affected by collection, maintenance, use, and
        dissemination of personal information by federal agencies.

2.	     The increasing use of computers and sophisticated information technology, while essential to
        efficient government operations, has greatly magnified the harm to individual privacy that can
        occur from any connection, maintenance, use, or dissemination of personal information.

3.	     Opportunities for any individual to secure employment, insurance, and credit have a right to due
        process, and other legal protections are endangered by misuse of certain information systems.

4.	     The right to privacy is a personal and fundamental right protected by the Constitution of the
        United States.

5.	     To protect the privacy of individuals identified in information systems maintained by federal
        agencies, it is necessary for Congress to regulate collection, maintenance, use, and dissemination
        of information by such agencies.

The purpose of the Privacy Act of 1974 is to provide certain safeguards for an individual against an
invasion of personal privacy by requiring federal agencies, except as otherwise provided by law, to:

1.	     Permit an individual to determine what records pertaining to him/her are collected, maintained,
        used, or disseminated by such agencies.

2.	     Permit an individual to prevent records pertaining to him/her obtained by such agencies for a
        particular purpose from being used or made available for another purpose without consent.

3.	     Permit an individual to gain access to information pertaining to him/her in federal agency records,
        to have a copy made of all or any portion thereof, and to correct or amend such records.

4.	     Collect, maintain, use, or disseminate any record of identifiable personal information in a manner
        that assures that such action is for a necessary and lawful purpose, that the information is current
        and accurate for its intended use, and that adequate safeguards are provided to prevent misuse of
        such information.

Section 6 of the Privacy Act of 1974 directed OMB to develop guidelines for agencies to use in the Act’s
implementation. Driven by the Privacy Act and recent high-profile incidents surrounding actual or
potential privacy breaches or loss of sensitive PII, OMB has released a number of memorandums for
agencies to follow in protecting PII, including:

        •       OMB Circular A-130, Management of Federal Information Resources, Appendix I,
                Federal Agency Responsibilities for Maintaining Records About Individuals

        •	      OMB Memorandum M-03-18, Implementation of E-Government Act of 2002


                                                   6

          •	        OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions
                    of the E-Government Act of 2002

          •	        OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy

          •	        OMB Memorandum M-06-16, Protection of Sensitive Agency Information

          •	        OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
                    Information and Incorporating the Cost for Security in Agency Information Technology
                    Investments

          •	        OMB Memorandum M-07-16, Safeguarding Against and Responding to Breach of
                    Personally Identifiable Information

          •	        OMB Memorandum M-07-18, Ensuring New Acquisitions Include Common Security
                    Configurations

          •	        OMB Memorandum M-07-19, Reporting Instructions for Federal Information Security
                    Management Act and Agency Privacy Management

In addition to the Privacy Act and OMB memorandums, Congress passed and the President signed into
law the Consolidated Appropriations Act, 2005 (Public Law 108-447), on December 8, 2004. Section
522 of this Act mandates of certain agencies the designation of a senior privacy official, establishment of
privacy and data protection procedures, a written report by the agency on the use of information in an
identifiable form,4 independent third-party review of the agency’s use of information in an identifiable
form, and a report by the Inspector General to the agency head on the independent review and resulting
recommendations.

Section 522 (d)(3) requires the Inspector General to contract with an independent third-party privacy
professional to evaluate the agency’s use of information in an identifiable form and privacy and data
protection procedures. The independent review is to include (a) an evaluation of the agency’s use of
information in identifiable form, (b) an evaluation of the agency’s privacy and data protection procedures,
and (c) recommendations on strategies and specific steps to improve privacy and data protection
management. Section 522 requires an independent third-party review at least every two years and
requires the Inspector General to submit a detailed report on the review to the agency head. The
independent third-party report and related Inspector General report are to be made available to the public
through the internet.

Additional laws, regulations, and criteria released by Congress, OMB, and NIST related to privacy
include:

          •	        The E-Government Act of 2002, Section 208, HR 2458

          •	        Federal Information Processing Standards Publication (FIPS PUB) 199, Standards for
                    Security Categorization of Federal Information and Information Systems

          •	        FIPS PUB 200, Minimum Security Requirements for Federal Information and
                    Information Systems



4
  Identifiable form is any representation of information that permits the identity of an individual to whom the information applies
to be reasonably inferred by either direct or indirect means. Personally identifiable information (PII) has a similar meaning and
will be the term used throughout this document.
                                                              7

        •	       NIST Special Publication (SP) 800-60, Volume I: Guide for Mapping Types of
                 Information and Information Systems to Security Categories

        •	       NIST SP 800-60, Volume II: Guide for Mapping Types of Information and Information
                 Systems to Security Categories

OBJECTIVES, SCOPE AND METHODLOGY

The FEC’s OIG contracted with Cotton & Company to conduct a performance audit of the agency’s
privacy and data protection policies and procedures and compliance with Section 522. Specific audit
objectives were to:

        •	       Determine the FEC’s compliance with privacy requirements outlined in Section 522.

        •	       Evaluate the FEC’s use of information in identifiable form to ensure that the FEC’s
                 description of this use is accurate and accounts for the agency’s current technology and
                 its processing of information in an identifiable form.

        •	       Evaluate the FEC’s protection procedures of information in identifiable form to ensure
                 that all technologies used to collect, use, store, and disclose information in identifiable
                 form allow for continuous auditing of compliance with stated privacy policies and
                 practices governing collection, use, and distribution of information.

        •	       Recommend strategies and specific steps to improve privacy and data protection
                 management.

        •	       Review the FEC’s technology, practices, and procedures for collecting, using, sharing,
                 disclosing, transferring, and maintaining security over information in identifiable form
                 relating to agency employees and the public.

        •	       Review the FEC’s stated privacy and data protection procedures for collecting, using,
                 sharing, disclosing, transferring, and maintaining security over information in identifiable
                 form relating to agency employees and the public.

        •	       Conduct a detailed analysis of the FEC’s intranet, network, and websites for privacy
                 vulnerabilities, including:

                 •	      Noncompliance with stated practices, procedures, and policies.

                 •	      Risks for inadvertent release of information in identifiable form from the
                         agency’s website.

In addition, because the FEC has determined that certain federal privacy laws and regulations do not
apply to the agency due to specific exemption under the Paperwork Reduction Act (E-Government Act of
2002 and a number of OMB regulations), Cotton & Company reviewed the FEC’s internal legal
assessments of compliance requirements for privacy regulations, laws, and other federal guidance to
determine if we agreed with the FEC’s assessment of exemptions. Specific laws and regulations reviewed
included:

             •   Title V, Section 522 of the Consolidated Appropriations Act, 2005
             •   Privacy Act of 1974, 5 USC § 552a
             •   OMB memorandums related to privacy
             •   E-Government Act of 2002, H.R. 2458

                                                    8

The audit included a detailed analysis of the FEC’s intranet and websites for privacy vulnerabilities,
including noncompliance with stated policies, practices, procedures, and risks for inadvertent release of
information in an identifiable form from the FEC website. Finally, we conducted a follow-up review of
findings identified in the FEC OIG’s 2006 Inspection Report on Personally Identifiable Information.

During our audit, we noted that the FEC had not adopted a compliance framework for privacy. Therefore,
Cotton & Company chose a framework we consider to be a best practice with which to audit against. We
based our audit on federal best practices, including NIST Special Publications, FIPS, and OMB
memorandums and circulars.

Cotton & Company conducted the audit through the use of detailed interviews, questionnaires, and
evaluations of FEC privacy and security policies, procedures, and directives. We conducted interviews to
obtain an understanding of the types of information, including PII, handled by FEC personnel and to
determine if management had identified and adequately protected sensitive PII. We interviewed key
personnel from senior management and staff from various offices including the Office of the CFO, Office
of the CIO, and OGC.

We developed and administered a questionnaire to a subjective population of FEC employees inquiring
about their use of PII as part of daily work activities. Based on questionnaire responses, we followed up
with additional interviews or emails to obtain further clarification and information about employee use of
PII. The follow-up interviews or emails were to determine specifically if: PII was being used, processed,
stored, or handled by FEC personnel; what controls, if any, were in place over PII; and whether PII
identified was included in the FEC’s system of records (SOR).

In addition, where sensitive PII was identified, we determined if management was aware that agency
personnel had access to sensitive PII and if the FEC implemented adequate controls over the PII.

We conducted our audit in accordance with Government Auditing Standards, as promulgated by the
Comptroller General of the United States for performance audits. We conducted this audit from
September to November 2007. We were not requested to, and we cannot, express an opinion as it relates
to any financial information or information security controls related to the FEC.

Based on audit results, Cotton & Company developed findings and recommendations for management,
which are in the following section.




                                                   9

DETAILED FINDINGS AND RECOMMENDATIONS

Finding 1: A Comprehensive Inventory of Personally Identifiable Information Has Not Been
Documented

The Chief Privacy Officer(s) have not developed and documented a comprehensive inventory of PII
collected, processed, and stored by the FEC. The FEC’s efforts to date have primarily been aimed at
identifying PII or systems of record for inclusion in the SOR (required under the Privacy Act). The SOR
identifies only systems or PII that meet all of the following criteria:

1.      Does the system contain PII?
2.      Is the system operated by or for the FEC?
3.      Is the information searchable by name or unique identifier?
4.      Is the information accessed regularly?

In addition to being limited to the four criteria above, the FEC’s SOR does not describe PII collected,
processed, or stored in sufficient detail to meet requirements of a PII inventory. A PII inventory should
identify all PII and specifically document where the PII is being stored. The PII inventory description
should include not only the PII office location, but precisely identify the locked room or cabinet in which
PII is stored.

Finally, while the FEC’s SOR does include general descriptions of how PII is being stored, such as in
locked filing cabinets, on protected computer networks, or located in locked rooms, these descriptions do
not identify which cabinets or rooms, and the descriptions were inaccurate in many cases, as shown by
results of our after-hours walkthrough (see Finding 2).

Section 522 (a), Privacy Officer, states:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for
        privacy and data protection policy, including – (7) ensuring that the Department protects
        information in an identifiable form and information systems from unauthorized access,
        use, disclosure, disruption, modification, or destruction.

OMB Memorandum M-07-16, Section B.1, Privacy Requirements - Review and Reduce the Volume of
Personally Identifiable Information, page 6, Review Current Holdings, states:

        Agencies must now also review their current holdings of all personally identifiable
        information and ensure, to the maximum extent practicable, such holdings are accurate,
        relevant, timely, and complete, and reduce them to the minimum necessary for the proper
        performance of a documented agency function.

OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy, page 1, states:

        As is required by the Privacy Act, the Federal Information Security Management Act
        (FISMA), and other laws and policies, each agency must take appropriate steps
        necessary to protect personal information from unauthorized use, access, disclosure or
        sharing, and to protect associated information systems from unauthorized access,
        modification, disruption or destruction. Agencies are required to maintain appropriate
        documentation regarding their compliance with information privacy laws, regulations,
        and policies.




                                                  10 

Finally, the FEC’s Privacy Protection Policies and Procedures (Draft), undated, Section VII, Security,
states:

        The FEC shall provide security protection for all records that contain personal
        information maintained in FEC’s systems to ensure the accuracy, integrity and
        confidentiality of the records. The FEC’s security protections for systems that store
        personal information shall include appropriate administrative, technical and physical
        safeguards such as:

        1.     Physical security of both hard copy and electronic data;
        2.     Personnel security for employee and contractor access to data;
        3.     Network security for data in transit; and
        4.     Secure and timely destruction of records.

        The security protection afforded each system shall be commensurate with the risk level
        and magnitude of harm the FEC and/or the record subject would face in the event of a
        security breach.

Because management has focused its resources on updating the SOR, which is required under the Privacy
Act, 5 USC § 552a, and has not focused on identifying all sensitive PII, regardless of whether it meets the
four criteria identified by the FEC, we noted a significant amount of unprotected sensitive PII during our
after-hours walkthrough. Without conducting a comprehensive review of all types of information
received, processed, and stored by the FEC, management cannot ensure that all sensitive PII has been
identified and adequate controls implemented to protect sensitive PII from unauthorized use, disclosure,
or destruction. In addition, the likelihood of fraudulent activities is greater.

Recommendations

We recommend that the Chief Privacy Officer:

        1a.	      Conduct a comprehensive review to identify and document all personally identifiable
                  information collected, processed, and stored within the FEC. This inventory should be
                  detailed enough to identify the information format (hard copy vs. electronic) and
                  specifically identify where the information is maintained (cabinets, offices, storage
                  rooms, etc).

        1b.	      Develop, document, and implement procedures for periodically updating the FEC’s
                  inventory of PII.

Management Response

Management concurs with this finding and stated they are in the process of finalizing their Plan to
Review and Reduce Holdings of Personally Identifiable Information and Eliminate Unnecessary Use of
Social Security Numbers. Prior to the development of this plan, the FEC distributed a survey to agency
divisions to determine which divisions collect and use Social Security Numbers, the rationale for
collection and use, necessity for this collection, and if alternate identifiers may be used. Initial survey
results provided useful information and will assist FEC management in implementing the above-
mentioned plan.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.



                                                   11 

Finding 2: Safeguards Over Sensitive Personally Identifiable Information Need Improvement

Controls were not adequate to ensure that sensitive PII collected, processed, or stored by the FEC has
been adequately safeguarded. We performed an after-hours walkthrough and identified instances in
which PII was easily accessible to unauthorized personnel. Specific examples include:

        •	      FEC employee timesheets, travel, and training records, including employee names, social
                security numbers, and birth dates, were stored in unsecured common-area desks and
                unlocked file cabinets.

        •	      Candidate records and FEC audit work papers, containing names, addresses, phone
                numbers, canceled checks with bank account and routing numbers, and signatures were in
                unsecured common-area desks and cubicles.

        •	      “Matter Under Review” (MUR) documentation, including banking information (checks
                and copies of checks showing routing and account numbers) were in unsecured areas,
                such as desks, unlocked common-area cabinets, and cardboard boxes in offices and
                common areas.

        •	      Interoffice folders marked “confidential” containing possible PII regarding employees
                were in unsecured common-area mail slots and on common-area desks.

        •	      CDs labeled “confidential” or marked with other information noting possible PII were in
                unlocked offices on desks.

        •	      Outdated individual applications for FEC employment containing names, addresses,
                phone numbers, and social security numbers were retained in an unsecured office
                common area of a FEC program division.

In addition, the FEC has not adequately assessed controls over third-party systems housing FEC data for
effectiveness. For example, the FEC has not performed a review to ensure that controls over the payroll
system hosted by the National Finance Center (NFC) are in place and operating effectively.

The FEC’s Privacy Protection Policies and Procedures (Draft), undated, Section VII, Security, states:

        The FEC shall provide security protection for all records that contain personal
        information maintained in FEC’s systems to ensure the accuracy, integrity and
        confidentiality of the records. The FEC’s security protections for systems that store
        personal information shall include appropriate administrative, technical and physical
        safeguards such as:

        1.   Physical security of both hard copy and electronic data;
        2.   Personnel security for employee and contractor access to data;
        3.   Network security for data in transit; and
        4.   Secure and timely destruction of records.

        The security protection afforded each system shall be commensurate with the risk level
        and magnitude of harm the FEC and/or the record subject would face in the event of a
        security breach.




                                                  12 

Section 522, (a)(7), states:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for
        privacy and data protection policy, including ensuring that the Department protects
        information in an identifiable form and information systems from unauthorized access,
        use, disclosure, disruption, modification, or destruction.

OMB Memorandum M-05-08, page 1, states:

        As is required by the Privacy Act, the Federal Information Security Management Act
        (FISMA), and other laws and policies, each agency must take appropriate steps
        necessary to protect personal information from unauthorized use, access, disclosure or
        sharing, and to protect associated information systems from unauthorized access,
        modification, disruption or destruction. Agencies are required to maintain appropriate
        documentation regarding their compliance with information privacy laws, regulations,
        and policies.

The FEC does not have a comprehensive framework in place for effectively identifying, documenting,
and protecting PII in both electronic and hard copy form. In addition, the CPO has not taken appropriate
steps to identify where sensitive PII is used within the FEC and to ensure that business areas have
effective policies, procedures, and practices in place to handle PII in their possession.

Section 522, (a)(1), states:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for
        privacy and data protection policy, including assuring that the use of technologies
        sustain, and do not erode, privacy protections relating to the use, collection, and
        disclosure of information in an identifiable form.

Also, we concluded that FEC business areas (offices, divisions, and branches) have not clearly
documented and implemented policies, procedures, and practices for handling the retention, storage, and
destruction of sensitive PII. While management has identified PII for inclusion in the SOR and has
implemented some high-level security controls (encryption and 2-factor authentication) over the FEC’s
computers, the CPO has not taken adequate steps to ensure that sensitive PII in both hard copy and
electronic form within the FEC has been identified and adequately protected.

Without a comprehensive framework in place that ensures that sensitive PII has been identified and is
being adequately protected, the risk of unauthorized access to sensitive PII increases. Unauthorized
access to sensitive PII, such as social security numbers and banking information, could be used to commit
identify theft or other fraudulent activities.

Recommendations

We recommend that the Chief Privacy Officer:

        2a.	     Develop and implement a comprehensive data management framework to ensure that
                 sensitive PII in both hard copy and electronic format is adequately identified (including
                 its location within the FEC), secured, and properly disposed of when no longer needed.

        2b.	     Develop a policy and procedures to ensure that FEC PII maintained or processed by third
                 parties is adequately protected from unauthorized use or disclosure.



                                                   13 

Management Response

Management concurs with this finding and stated that they are reexamining their privacy program to
ensure that policies, procedures, and guidelines to protect PII are at an acceptable level. In addition,
representatives stated that they will again remind FEC employees of the importance of protecting PII and
implement personalized training specific to the agency to assist each employee and contractor in
understanding the critical importance of protecting PII.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.

Finding 3: Privacy Policies and Procedures Have Not Been Approved and Implemented

The FEC has not established and implemented comprehensive privacy and data protection policies and
procedures governing the agency’s collection, use, sharing, disclosure, transfer, storage, and security of
information in identifiable form in accordance with Section 522.

The FEC’s timeframe for complying with Section 522 requirements was delayed, in part, due to its effort
to determine if the agency was subject to the Act. Management filed a privacy report with the OIG in
compliance with Section 522 in February 2007. As of the completion of our audit, management was still
in the process of developing draft policies, procedures, and directives, which, when finalized, must
undergo Commission approval before being implemented.

The following privacy policies, procedures, and directives were in draft stage during our testing period:

        •	       Privacy Protection Policies and Procedures

        •	       FEC Plan to Review and Reduce Holdings of Personally Identifiable Information and
                 Eliminate Unnecessary Use of Social Security Numbers

        •	       Privacy Rules of Conduct

        •	       Designation of Chief Privacy Officer and Senior Agency Official for Privacy

        •	       Policy and Plan for Responding to Breaches of Personally Identifiable Information
                 (finalized after audit testing period)

Section 522, (b), Establishing Privacy and Data Protection Procedures and Policies, states:

        In general.--Within 12 months of enactment of this Act, each agency shall establish and
        implement comprehensive privacy and data protection procedures governing the
        agency's collection, use, sharing, disclosure, transfer, storage and security of information
        in an identifiable form relating to the agency employees and the public. Such procedures
        shall be consistent with legal and regulatory guidance, including OMB regulations, the
        Privacy Act of 1974, and section 208 of the E-Government Act of 2002.

In addition, Section 522 (1), In General, states:

        Within 12 months of enactment of this Act, each agency shall establish and implement
        comprehensive privacy and data protection procedures governing the agency’s collection,
        use, sharing, disclosure, transfer, storage, and security of information in identifiable
        form relating to the agency employees and the public.


                                                    14 

The FEC’s Privacy Protection Policies and Procedures (Draft), undated, Section VII, Security, states:

        The FEC shall provide security protection for all records that contain personal
        information maintained in FEC’s systems to ensure the accuracy, integrity and
        confidentiality of the records. The FEC’s security protections for systems that store
        personal information shall include appropriate administrative, technical and physical
        safeguards such as:

        1.    Physical security of both hard copy and electronic data;
        2.    Personnel security for employee and contractor access to data;
        3.    Network security for data in transit; and
        4.    Secure and timely destruction of records.

        The security protection afforded each system shall be commensurate with the risk level
        and magnitude of harm the FEC and/or the record subject would face in the event of a
        security breach.

Without clearly documented privacy policies and procedures, management cannot ensure that is has
adequate controls in place over the use and protection of sensitive PII. In addition, without documented
privacy policies and procedures to disseminate to the user community, management cannot ensure that
employees and contractors understand their responsibilities for collecting, using, sharing, disclosing,
transferring, storing, and securing sensitive PII.

For example, we noted an instance in which the FEC inadequately documented a recent security breach
response. Management insufficiently documented its conclusion that a breach of sensitive PII did not
occur. Specifically, the available documentation did not contain a clear description of the compensating
controls that were in place to mitigate a potential release of sensitive PII. If the FEC’s documented Policy
and Plan for Responding to Breaches of Personally Identifiable Information had been in place at the time
of the FEC’s identification of the potential breach, and management had sufficiently completed an
Identity Theft Risk Analysis, more information would have been available for the OIG and others to reach
the same conclusion as management.

Recommendation

        3.	      We recommend the Chief Information Officer finalize, approve, and implement privacy
                 policies, procedures, and directives in accordance with federal laws and regulations.

Management Response

Management concurs with this finding and stated they are in the process of finalizing agency privacy
policies, procedures, and directives and expects to circulate final documents for Commission approval
within the next 30 days.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.

Finding 4: Privacy Roles and Responsibilities Are Not Adequately Documented

The FEC’s privacy roles and responsibilities have not been clearly documented and assigned in
accordance with Section 522. CPO, PO, and SAOP roles and responsibilities have been documented in
draft privacy policies and directives, but these have not been finalized and implemented.

In addition, the CPO and SAOP positions are being shared by the GC GLA and the CIO, although
documented roles and responsibilities for the CPO and SAOP have not been specifically assigned. In
                                                 15 

addition, while draft CPO roles and responsibilities do include responsibility for ensuring compliance
with laws and regulations, draft policies and directives do not identify how compliance will be monitored
or identify specific privacy monitoring activities for each of the CPOs. Based on interviews with each
CPO, it was unclear who is ultimately responsible for ensuring compliance with privacy policies and
procedures at the agency level.

Section 522, (a), Privacy Officer, states:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for
        privacy and data protection policy, including –

        1.	 assuring that the use of technologies sustain and do not erode, privacy protections
            relating to use, collection, and disclosure of information in an identifiable form;

        2.	 assuring that technologies used to collect, use, store, and disclose information in
            identifiable form allow for continuous auditing of compliance with stated privacy
            policies and practices governing the collection, use and distribution of information in
            the operation of the program;

        3.	 assuring that personal information contained in Privacy Act systems of records is
            handled in full compliance with fair information practices as defined in the Privacy
            Act of 1974;

        4.	 evaluating legislative and regulatory proposals involving collection, use, and
            disclosure of personal information by the Federal Government;

        5.	 conducting a privacy impact assessment of proposed rules of the Department on the
            privacy of information in identifiable form, including the type of personally
            identifiable information collected and the number of people affected;

        6.	 preparing a report to Congress on an annual basis on activities of the Department
            that affect privacy, including complaints of privacy violations, implementation of
            section 552a of title 5, 11 United States Code, internal controls, and other relevant
            matters;

        7.	 ensuring that the Department protects information in an identifiable form and
            information systems from unauthorized access, use, disclosure, disruption,
            modification, or destruction;

        8.	 training and educating employees on privacy and data protection policies to promote
            awareness of and compliance with established privacy and data protection policies;
            and

        9.	 ensuring compliance with the Departments established privacy and data protection
            policies.

Section 522 (b), Establishing Privacy and Data Protection Procedures and Policies, states:

        In general.--Within 12 months of enactment of this Act, each agency shall establish and
        implement comprehensive privacy and data protection procedures governing the
        agency's collection, use, sharing, disclosure, transfer, storage and security of information
        in an identifiable form relating to the agency employees and the public. Such procedures
        shall be consistent with legal and regulatory guidance, including OMB regulations, the
        Privacy Act of 1974, and section 208 of the E-Government Act of 2002.
                                                   16
Without clear assignment of privacy roles and responsibilities to specific individuals, management’s
ability to hold individuals accountable to identify and protect PII is reduced. In addition, the lack of
clearly defined responsibilities increases the risk that individuals will not take adequate measures to
protect sensitive PII, because they are unaware it is their responsibility or they believe it was being
performed by others.

Recommendations

We recommend that the FEC:

        4a.	    Consider identifying one individual (position), such as the FEC Staff Director, as Chief
                Privacy Officer.

        4b.	    Assign privacy roles and responsibilities to specific positions. In the event that the FEC
                continues with shared CPO and SAOP responsibilities, clearly delineate roles and
                responsibilities among individuals sharing these positions.

        4c.	    Identify, document, and assign roles and responsibilities for monitoring compliance with
                federal and FEC privacy requirements.

Management Response

Management does not concur with this finding. The FEC has given careful consideration in assigning
shared CPO and SAOP responsibility and believes that no one person at the FEC could effectively handle
this task. Management believes there are specific areas of expertise required on the legal side, as well as
the IT side, that lend themselves to share duties by staff that have expertise in these areas. To the extent
this finding is about the specificity of the assignment of other responsibilities in the draft document, the
FEC will, of course, carefully consider the recommendations.

Auditor Response: While management does not concur with our recommendation of assigning one
Chief Privacy Officer, we do want to reiterate our belief that the effective management of privacy within
the agency is best achieved when overall responsibility and accountability lies with one individual.
Proceeding with Co-CPOs and Co-SAOPs will inherently increase the risk of specific activities related to
the identification and protection of PII being inadequately addressed by management. With that being
said, management should ensure privacy roles and responsibilities which do not easily fall under the legal
or IT umbrella have been identified, documented in their privacy policies and clearly assigned to one of
the Co-CPOs. Our audit clearly showed that responsibility for protection of hard copy PII which does not
fall under the legal or IT umbrella had not been identified and assigned to either of the CPOs, and as a
result, we found numerous instances where sensitive PII was unprotected and susceptible to theft.

Finding 5: Privacy Training Has Not Been Provided to FEC Employees and Contractors

The FEC has not adequately trained employees on privacy policies and procedures to promote awareness
of and compliance with established privacy policies. Management has not completed development and
delivery of privacy-specific training to FEC employees and contractors. The FEC has included limited
privacy information in its annual security awareness training; this information was not, however, provided
in adequate detail to address all appropriate privacy-related issues.




                                                   17 

Section 522, (a)(8), Privacy Officer, states:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for
        privacy and data protection policy, including training and educating employees on
        privacy and data protection policies to promote awareness of and compliance with
        established privacy and data protection policies.

In addition, the FEC’s Privacy Protection Policies and Procedures (Draft), Section IX, Training, states:

        It is essential that all FEC employees and contractors who come in contact with
        personally identifiable information and the systems that contain that information be
        aware of statutory and regulatory privacy requirements and FEC privacy policies and
        procedures. Training will be provided to all employees that come in contact with
        personally identifiable information or develop, manage, or maintain information systems
        that process and store personally identifiable information. Training will include the
        following:

        1.	 The purpose and scope of the Privacy Act;

        2.	 FEC Privacy Protection Policies and Procedures, including 11 C.F.R. Part 1 and the
            Breach Notification Policy and Plan;

        3.	 Appropriate use and disclosure of records under the Privacy Act;

        4.	 Security requirements for off-site computing;

        5.	 Privacy Rules of Conduct, including the consequences for failure to follow the rules
            and available corrective actions; and

        6.	 The possible criminal and civil penalties for violating the Privacy Act.

While management is in the process of developing privacy specific training to deliver to FEC employees
and contractors, the current lack of training increases the risk of sensitive PII being handled
inappropriately.

In addition, without effective privacy training in place, employees may be unaware of FEC privacy
policies and procedures, such as what constitutes sensitive PII, how to protect sensitive PII, and how to
report potential breaches of sensitive PII. For example, of 69 individuals who responded to our privacy
questionnaire, 30 (43 percent) did not recall receiving privacy training. Also, 41 respondents (59 percent)
were unable to identify the individuals who hold the CPO position. Specifically,

        •	       22 did not correctly identify either of the CPOs (32 percent)
        •	       19 correctly identified only one of the two CPOs (27 percent)

Recommendation

        5.	      We recommend that the Chief Privacy Officer develop and implement privacy training
                 for all FEC employees and contractors to ensure that personnel understand their privacy
                 roles and responsibilities. Privacy training topics should include identifying and
                 protecting sensitive PII, and responding or reporting potential breaches of sensitive PII.
                 Finally, privacy training should address the various practices and business needs within
                 the FEC.


                                                   18 

Management Response

Management concurs with this finding. While they believe they have addressed protection of sensitive
PII in security awareness training, issued guidelines for protecting PII, and followed up with emails and
newsletters, management concurs that room for improvement exists regarding educating staff and
contractors on their responsibilities for privacy. Management is developing a separate privacy education
course outlining components necessary to ensure that all staff and contractors who have privacy
responsibilities and access to PII are aware of their roles and responsibilities related to privacy and the
need to protect PII during its entire lifecycle.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.

Finding 6: Privacy Impact Assessments Have Not Been Conducted

The FEC has not conducted privacy impact assessments in accordance with Section 522, Section (a)(5) as
follows:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for
        privacy and data protection policy, including conducting a privacy impact assessment of
        proposed rules of the Department on the privacy of information in an identifiable form,
        including the type of personally identifiable information collected and the number of
        people affected.

The FEC conducted a legal review of this standard (privacy impact assessment) and concluded that this
portion of the Consolidated Appropriations Act was grounded in FISMA, which the FEC has legally
determined it is not required to follow.

While we are not disagreeing with that legal interpretation, management has not adopted a framework of
compliance and governance related to privacy and information technology controls and instead is
selective (generally based on legal decisions) with respect to which controls the FEC decides to
implement.

FEC management has determined that since privacy impact assessments derive from the E-Government
Act of 2002, (which the FEC is not subject to), it is not required to perform privacy impact assessments.
We agree with this legal opinion. However, it is evident from management’s approach to determining
what privacy controls to implement, that management is concerned more with what it is legally required
(hence the significant legal input into decisions), rather than what is the best course of action to take
based on risk to the FEC.

Before determining if OMB-directed or -recommended activities are necessary to improve its privacy
practices, the FEC’s practice is to first assess whether the agency is legally required to comply by
reviewing statutory authority under which the guidance is based. Where a decision is made that only
partial compliance is required, we determined the legal assessments do not clearly define which activities
will and will not be undertaken. Further, where a legal opinion is reached that compliance is not required
(based on an assessment that a requirement is grounded in FISMA or another law), the FEC does not
document whether existing privacy practices and controls mitigate the need to formally adopt the OMB
requirements. Rather, the FEC relies on the legal opinion as to whether to direct resources toward those
privacy activities.

The FEC’s legal assessments have determined that the agency is not legally required to comply with any
of the eight OMB privacy-related memorandums released since 2005 in their entirety. The FEC has
decided, however, to adopt portions of six of the memorandums, either based on best practice or other

                                                  19 

legal requirements. Of the remaining two, the FEC has determined exemption from one, and a final
determination on compliance with the other, as a best practice, has yet to be finalized.

The E-Government Act of 2002, OMB memorandums, and other portions of the Executive Branch
compliance framework are clear best practices in the government environment. While the FEC may be
directly excluded from complying with FISMA and NIST guidance, other compliance frameworks exist
that would meet organizational needs. The Committee of Sponsoring Organizations of the Treadway
Commission (COSO) model is a compliance and controls best practice framework in the corporate world.
In addition, the Control Objectives for Information and Related Technology (CobiT) is an information
technology governance process and often supports the COSO model. Both are internationally recognized
and accepted frameworks for governance and control. By failure to adopt a framework, management is
not able to make risk-based decisions regarding appropriate controls to implement.

Without a governance framework, management may be taking on more risk than it would otherwise want
to accept or may be inefficient in the application of controls. Specifically, without a privacy impact
assessment, the FEC cannot accurately assess where privacy-related risks exist. Sensitive PII may be
compromised by exploiting these unprotected risks.

Recommendations

We recommend that the FEC:

        6a.	     Identify and implement a governance framework to ensure that controls within the FEC
                 are appropriately identified, documented, and implemented.

        6b.	     Conduct privacy impact assessments in accordance with Section 522.

        6c.	     Comply with OMB memorandums or, in the event of statutory exemption, document that
                 sufficient controls exist to mitigate the need to comply. Where compliance is not adopted
                 due to resource constraints, document the legal assessment, risk analysis, and cost-benefit
                 to the FEC.

Management Response

Management does not concur with this finding, stating that the recommendations in this finding will
require careful consideration and may not ultimately be adopted precisely as set forth in the finding. In
addition, management states that it does not perform privacy impact assessments due to limited
resources, not based on legal opinion that the E-Government Act is not applicable to the FEC.

Auditor Response: While management may be exempt from specific laws and regulations which outline
security best practices, we believe management’s fiduciary responsibility is to ensure adequate controls are
in place to protect the FEC’s information and information systems confidentiality, integrity, and availability.
A security framework does not distinguish between what types of data it is protecting, but rather guides
management in identifying, implementing, and monitoring the effectiveness of controls over information the
agency determines to be important or sensitive. Examples of sensitive information can include not only
privacy data, such as social security numbers and banking information, but also agency or company trade
secrets and confidential business information. For this reason, we believe the best way to identify and
protect PII, which was the focus of our audit, is to have a comprehensive security management framework
in place.




                                                    20 

Finding 7: Personnel Have Not Complied with FEC Computer Security Policy

The FEC’s computer security policies were not being followed by FEC personnel. During an after-hours
walkthrough of the FEC building, we identified the following:

        •	       Employees left usernames and passwords written on notes within proximity to their
                 computers.

        •	       Employees left USB 2-factor privacy encryption authentication tokens unsecured in their
                 laptops.

Federal Election Commission Rules of Behavior and Acceptable Use Standards for Federal Election
Commission Information and Systems Resources, undated, Section 8.d, states:

        Protect your password from disclosure. Specifically, do not post your password in your
        area.

Section 18 states:

        Protect FEC computing resources from theft or loss; take particular care to protect any
        portable devices and media entrusted to you, such as laptops, cell phones, palm-top
        computers, disks, CDs, and other portable electronic storage media.

The FEC’s Mobile Computing Security Policy Number 58-4.3, dated August 24, 2006, Section 2.a., states:

        Portable computing devices and associated peripherals issued by the FEC should be
        viewed as government property that must be adequately protected from theft.

Section 522, (a)(1), states:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for
        privacy and data protection policy, including assuring that the use of technologies
        sustain, and do not erode, privacy protections relating to the use, collection, and
        disclosure of information in an identifiable form.

Passwords left on desks and USB tokens left in laptop computers in unsecured offices increase the
likelihood that an individual with physical access may conduct unauthorized access of the laptop or other
resources. As a result, unauthorized individuals may obtain sensitive PII and use the information for
activities such as identity theft or fraud.

Recommendation

        7.	      We recommend that the Chief Information Officer take necessary steps to ensure that
                 users are complying with FEC IT security policies and procedures.

Management Response

Management concurs with this finding and intends to address these physical security issues through an
email to be sent to all staff the week of November 26, strong emphasis on privacy training now under
development and in continued information systems security training; and other means and methods to be
developed by the co-CPOs in conjunction with the FEC’s physical security officer and other management
officials.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.
                                                 21 

                                           ATTACHMENT 1 

                                        MANAGEMENT RESPONSES


                     Management Response to the Cotton & Company, LLP
                        “2007 Report on Privacy and Data Protection”

        We appreciate the opportunity to respond to the “2007 Report on Privacy and Data Protection,”
conducted pursuant to section 522 of the Consolidated Appropriations Act, 2005. We consider privacy to
be a matter of great importance and have undertaken significant efforts to ensure compliance.

         The FEC has always taken very seriously the need to protect the security and privacy of
information in its possession. We are constantly aware that we possess sensitive information about
individuals’ involvement in activities that lie at the heart of the First Amendment. Our statute commands
us, for example, not to make public information concerning ongoing enforcement matters, and our record
of complying with this mandate over the past three decades is excellent. In the area of information
systems security, we have taken many steps in the last four years to improve the security of sensitive and
other electronic data, including 15 separate technical improvements such as two-factor authentication for
employee laptops, upgrades to the majority of our server network operating systems, and installation of
intrusion detection software; more extensive, and automated, user training in information security; and a
continuous monitoring program that tests nine critical aspects of security or security response either
annually or biannually.

         We recognize that in the Internet age, special attention has to be devoted to specific concerns
related to the privacy of information about individuals – both for the First Amendment-related reasons
with which the Commission has always been concerned, and because of the potential for problems such
as identity theft. We are at the beginning of our agency’s privacy program, and we believe we have
already accomplished a good deal given the limitations on our budgetary and human resources that we
face as a small agency of fewer than 400 employees. Specific examples of what we have done and plan to
do in the privacy areas are found in our responses to the specific audit findings.

         We particularly welcome this audit, which we have always viewed as an opportunity to obtain a
baseline that will assist management in working with the IG and with other stakeholders to improve the
agency's privacy and data protection management. The importance we attach to privacy issues is
reflected in this fact: in the entry conference for this audit, in October 2007, we were informed that so far
as IG staff could determine, fewer than 10 agencies at that time had undertaken and made public the
results of their section 522 audits. We believe that undergoing the audit process and publicizing its
findings at this early stage of our privacy efforts underscores, particularly in comparison with other
agencies, the FEC’s commitment to enhance privacy protections within the bounds of our statutory
mandate and the resources available to us.

         We read the audit’s seven findings as identifying four immediate and concrete, as opposed to
conceptual, issues to be tackled: the development of an inventory of personally identifiable information
(PII); the physical security of hard copies and portable electronic media containing PII; the finalization of
privacy policies and procedures; and staff training. As of this writing, two of these issues should be
addressed in very short order: all draft policies and procedures have now been forwarded to the
Commission for its consideration, and privacy training for all employees is under development and
calendared for the first quarter of 2008. As for the other two issues, we have already sent a Commission-
wide message reporting the results of the auditors’ walkthrough and reminding employees of their
obligations concerning the physical security of their work areas, and, as set forth in our response to
Finding 1, we believe we have made a strong start towards the development of a PII inventory.


                                                   22 

         We also believe that the co-CPO structure described in the report, and differed with by the
auditors, is in large part responsible for our making as much progress as we have – both for the expertise-
related reasons described in our response to Finding 4, and for the simple reason that the involvement of
two teams has made more people (though still very few) available to work on privacy-related tasks than
otherwise might have been available.

       We look forward to giving careful consideration to all of the recommendations in the report, and
implementing many of them. Our specific responses to the audit’s findings follow.

Finding 1: A Comprehensive Inventory of Personally Identifiable Information Has Not Been
Documented

Management concur - Yes

Management Response: We believe that the process of completing the SORNs provided a very good
start to our PII inventory. In connection with that process, the FEC reviewed its holdings of agency
records. The review revealed that the agency's most sensitive PII is covered by either a proposed FEC
SORN or a government-wide SORN. In fact, the auditors have informed us that based on their survey of
a sample of agency employees about PII; it appeared that all of the agency's most sensitive PII was
covered by a SORN. Management knows with a fairly high degree of confidence which business units
within the Commission collect and retain what kinds of PII and for what purposes. The PII identified
during the after hours walkthrough, noted in “Effect” above, is not as much related to the issue of having
an inventory, but rather, related to the issue of security, training, and implementation. Also, in
compliance with OMB Memorandum 07-16 and additional implementation guidance from OMB staff, the
FEC has already published, on the agency website, a schedule to periodically review agency holdings of
PII. The PII review will cover all agency PII and not just the most sensitive agency PII contained in the
SORNs. Moreover, the FEC is in the process of finalizing its Plan to Review and Reduce Holdings of
Personally Identifiable Information and Eliminate Unnecessary Use of Social Security Numbers. Prior to
the development of this plan, the FEC sent out a survey to agency divisions to determine which ones
collect and use social security numbers, the rationale for collection and use, whether the collection is
necessary, and whether alternate identifiers may be used. The initial survey results provided useful
information and will assist us in implementing the above mentioned plan.

We anticipate that our efforts to inventory PII will also be assisted by the audit results, and by collateral
benefits from contractor support now underway to enable the Commission to prepare for compliance with
electronic discovery amendments to the Federal Rules of Civil Procedure.

However, a truly comprehensive inventory of all PII retained within the Commission may require
contractor support when adequate financial resources become available.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.

Finding 2: Safeguards Over Sensitive Personally Identifiable Information Need Improvement

Management concur - Yes

Management Response: Although FEC Management believes it does have controls in place to
sufficiently protect PII it concurs that there is always room for improvement. With this in mind, the FEC
is reexamining its Privacy Program to ensure that its policies, procedures, and guidelines to protect PII are
at an acceptable level. In addition to this reevaluation, Management will again remind FEC employees of


                                                   23 

the importance of protecting PII, and implement personalized training specific to the agency to assist each
employee and contractor in understanding the critical importance of protecting PII.

In particular, we understand this Finding, and the results of the walkthrough, as raising a specific issue
regarding the physical security of hard copy documents containing the most sensitive PII, as well as of
electronic documents stored on portable media. Management plans to address this issue through an email
that has already been sent to all staff about the walkthrough and its results; through particular emphasis in
the privacy training now under development; and through consultation with the Commission's
Administrative Officer, who is also the Commission's physical security officer, about other means and
methods.

As mentioned in response to Finding 1, we anticipate that our efforts to conduct a more comprehensive
inventory of PII will be assisted by the receipt of the audit results and by collateral benefits from
contractor support now underway to enable the Commission to prepare for compliance with electronic
discovery amendments to the Federal Rules of Civil Procedure. However, a truly comprehensive
inventory of all PII retained within the Commission may require contractor support when adequate
financial resources become available.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.

Finding 3: Privacy Policies and Procedures Have Not Been Approved and Implemented

Management concur - Yes

Management Response: We are in the process of finalizing agency privacy policies, procedures and
directives. The final documents have been circulated for Commission approval.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.

Finding 4: Privacy Roles and Responsibilities Are Not Adequately Documented

Management concur - No

Management Response: The FEC has given careful consideration in making the decision to have Co-
CPO's/SAOPs. We believe that no one person at the FEC could effectively handle this task. There are
specific areas of expertise required on the legal side as well as the IT area that lends itself to share duties
by staff that has expertise in these areas. In other words, the synergy currently in place makes the sum of
the parts greater than the whole or just having one CPO/SAOP. The two skill sets provide for
complimentary efforts that allows for collaboration of people with organizational and technical skills to
get the job done. In fact, the partnership between the two positions (Associate General Counsel for
General Law and Advice and the Chief Information Officer) allows for the perfect balance of expertise to
ensure all aspects of privacy requirements are addressed.

The two individuals that hold these positions and their respective staff are working well together on
privacy matters; each office brings vital expertise to the task of privacy protection that the other does not
have; the structure is consistent with the organization of the agency itself, in which the General Counsel
and Staff Director each report directly to the Commission; and in practical terms, designation of any
official as a single Chief Privacy Officer/Senior Agency Official for Privacy will not remove from either
OGC or ITD any of the privacy duties either office now performs. In essence this structure allows for


                                                    24 

more people to be involved with shared ownership and accountability ensuring maximum effort is spent
to address the critical tasks of protecting PII.

Obviously, some privacy duties will by their nature involve primarily legal issues, and those will be
principally in the purview of the Associate General Counsel for General Law and Advice. Some will by
their nature involve primarily issues of information technology or information systems security, and those
will be principally in the purview of the Chief Information Officer. We note that in our draft privacy
policy documents, duties regarding compliance with the Privacy Act of 1974 are assigned solely to the
“FEC Privacy Officer,” a position distinct from the CPO or SAOP that will be held solely by the
Associate General Counsel for General Law and Advice. Certain other duties related to the acquisition
and management of information technology and information resources, the development of a sound,
secure and integrated IT architecture, and promotion of effective and efficient design and operation of all
major information resources management processes are specified in the draft as assigned solely to the
Chief Information Officer. To the extent this Finding is about the specificity of the assignment of other
responsibilities in the draft document, we will, of course, carefully consider the recommendations.

Auditor Response: While management does not concur with our recommendation of assigning one
Chief Privacy Officer, we do want to reiterate our belief that the effective management of privacy within
the agency is best achieved when overall responsibility and accountability lies with one individual.
Proceeding with Co-CPOs and Co-SAOPs will inherently increase the risk of specific activities related to
the identification and protection of PII being inadequately addressed by management. With that being
said, management should ensure privacy roles and responsibilities which do not easily fall under the legal
or IT umbrella have been identified, documented in their privacy policies and clearly assigned to one of
the Co-CPOs. Our audit clearly showed that responsibility for protection of hard copy PII which does not
fall under the legal or IT umbrella had not been identified and assigned to either of the CPOs and as a
result we found numerous instances where sensitive PII was unprotected and susceptible to theft.

Finding 5: Privacy Training Has Not Been Provided to FEC Employees and Contractors

Management concur - Yes

Management Response: The FEC has addressed the protection of sensitive information (PII) in its very
extensive training on information systems security; issued guidelines for protecting sensitive information;
and followed up with emails and newsletters. Nevertheless, the FEC concurs that there is room for
improvement regarding educating staff and contractors on their responsibilities as it relates to privacy. To
this end, the FEC is developing a separate privacy education course outlining the components necessary
to ensure that all staff and contractors who have privacy responsibilities and access to PII are aware of
their roles and responsibilities related to privacy and the need to protect PII during its entire lifecycle.
This privacy education course not only incorporates strategies necessary to address the issues presented in
this Finding but also ensures that the FEC has a documented mechanism in place to address future
changes in the privacy landscape.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.

Finding 6: Privacy Impact Assessments Have Not Been Conducted

Management concur - No

Management Response: Management does not concur simply by way of underlining that the
recommendations in this Finding will require careful consideration, and may not ultimately be adopted
precisely as set forth in the Finding.

                                                  25 

The audit has found that we have not conducted privacy impact assessments, and this is correct. Privacy
impact assessments are required by the E-Gov Act, from which the Commission is exempt. There is a
similar requirement in Section 522 of the Consolidated Appropriations Act, 2005. As this particular
portion of Section 522 appears to be largely duplicative of the E-Gov Act, the Commission has
determined that it is also exempt from this provision of Section 522 (which otherwise generally applies to
it). To conclude otherwise would be to defeat the purpose of the Commission's exemption from the E-
Gov Act.

Nevertheless, this legal conclusion -- with which the audit report explicitly does not disagree -- is not the
reason we do not conduct privacy impact assessments. Our concern, instead, is one of resources.
Examples of other agencies' privacy impact assessments (PIA) that we have reviewed appear to be rather
resource-intensive to produce. For instance, the Justice Department's instructions alone for completing
PIAs run 21 single-spaced pages. We are a small agency, and do not have the resources to devote any
employees to privacy duties on a full-time basis. Currently, all employees assigned privacy duties
perform them as collateral duties. We concluded that the opportunity costs of delay in non-privacy
projects on which staff would otherwise be working would outweigh whatever benefits we would receive
from doing them. We will of course, however, carefully consider the recommendation regarding PIAs.

From the specific criticism of failure to conduct PIAs, the Finding expands its conclusion to a broader
point, which is also addressed in the Executive Summary. As we understand it, the auditors recommend
that to the extent the Commission chooses not to follow National Institutes of Standards and Technology
guidance issued pursuant to the Federal Information Security Management Act (from which the
Commission is also exempt), it should adopt what the Finding refers to as a formal "governance
framework." Under such a framework, again as we understand it, privacy decisions (at a minimum) or all
management decisions in the agency (ideally) would be assessed under, and be to some degree driven by,
a formal risk assessment process. As an example of such a process, the Finding refers specifically to the
"COSO" model ("Committee of Sponsoring Organizations of the Treadway Commission,") which we are
informed is one such model adopted by many private sector entities in the wake of the Sarbanes-Oxley
Act.

This is an area on which management will need to obtain more information. While we certainly
understand the relevance of risk management concepts and processes to the potential danger of a loss of
sensitive PII, we believe that recommendations about how the Commission assesses risk or makes
management decisions in general are certainly at the edge of this audit's scope, and will require careful
and deliberate consideration by the Commission itself and the agency's most senior management prior to
any decision to implement the recommendation here.

It should be noted that the FEC has taken an industry best practice approach and adopted a risk based
Information System Security Program. This risk based approach is outlined in 58A Information System
Security Program Policy and specifically in 58-2.1 Risk Management Policy (both of which were
provided to the auditors). In concert with its risk based approach and in accordance with industry best
practice the FEC has developed a comprehensive certification and accreditation process which provides
senior management with an accurate view of vulnerabilities and threats, risk evaluation and prioritization,
risk mitigation strategies and any associated residual risk. Evidence of our adherence to a risk-based
approach is indicated by contracting with an unbiased third party to conduct a series of formal risk
assessments. These risk assessments are currently ongoing. The information obtained from these risk
assessments will be utilized to develop, modify and implement any new policies, procedures and
standards to improve the Commission’s protection of all sensitive information, including PII. The FEC’s
risk-based model is based upon standard industry best practices and facilitates a cost effective
methodology for senior management to evaluate security strategies to protect information commensurate
with the information’s level of sensitivity.

                                                   26 

Additionally, it should be noted that we have created and implemented 28 security policies and 14 security
standards which we believe demonstrates that the agency is truly following best practices. With the current
staffing and financial limitations we believe these safeguards provide an acceptable level of risk.

Auditor Response: While management may be exempt from specific laws and regulations which outline
security best practices, we believe management’s fiduciary responsibility is to ensure adequate controls are
in place to protect the FEC’s information and information systems confidentiality, integrity, and availability.
A security framework does not distinguish between what types of data it is protecting but rather guides
management in identifying, implementing, and monitoring the effectiveness of controls over information the
agency determines to be important or sensitive. Examples of sensitive information can include not only
privacy data, such as social security numbers and banking information, but also agency or company trade
secrets and confidential business information. For this reason, we believe the best way to identify and
protect PII, which was the focus of our audit, is to have a comprehensive security management framework
in place.

Finding 7: Personnel Are Not Complying with FEC Computer Security Policy

Management concur - Yes

Management Response: This Finding raises issues similar to those raised by Finding 2 in that both
involve the physical security of work stations and common areas. As stated in response to that Finding,
management intends to address these physical security issues through an e-mail that has already been sent
to all staff; through strong emphasis in the privacy training now under development and in continued
information systems security training; and through other means and methods to be developed by the co-
Chief Privacy Officers in conjunction with the Commission's physical security officer and other
management officials.

Auditor Response: We look forward to following up with this matter in the future to ensure
management’s actions adequately address the weaknesses identified.




                                                    27 

                                               ATTACHMENT 2 

                        STATUS OF PRIOR-YEAR PRIVACY FINDINGS AND RECOMMENDATIONS


Finding                        Recommendation                              Status
Confirm identification of      Perform a risk assessment to examine the    Open
personally identifiable        threats and vulnerabilities associated
information protection needs   with remote access to Federal Election      Management will perform risk assessments
                               Commission (Commission) resources           for major applications and the general
                               and physical removal of PII.                support system (GSS) in the near future. An
                                                                           examination of threats and vulnerabilities
                                                                           associated with remote access to FEC
                                                                           resources and physical removal of PII will
                                                                           be included in the GSS risk assessment.
                               Perform a complete inventory of             Closed
                               Commission assets clearly identifying
                               which employees have custody over           Management provided the audit team with a
                               these assets with emphasis on removable     comprehensive inventory of all laptops and
                               portable devices; the make, build and       Blackberry devices including whom it was
                               configuration of these portable devices     issued to, model, serial, and barcode
                               and which devices have been encrypted       numbers, and if the device is password
                               and/or password-protected.                  protected, encrypted, and has 2-factor
                                                                           authentication.
                               Implement technical and/or policy           Open
                               controls to prevent access to the
                               Commission's resources for non-             Management is in the process of
                               encrypted laptops either locally or         implementing a network access control
                               remotely.                                   device that will deny or restrict access to the
                                                                           FEC’s network for devices not in
                                                                           compliance with the FEC’s policies and
                                                                           minimum settings. This device will not,
                                                                           however, be implemented until calendar
                                                                           year 2008.
                               Implement password protection for           Closed
                               personal digital assistants (PDAs) that
                               have access to Commission email and
                               other sources of sensitive information.
Verify adequacy of             Update the Mobile Computing Security        Open
organizational policy          Policy to more accurately reflect which
                               systems will be encrypted and which         Management did not change the Mobile
                               ones will be password protected in order    Computing Security Policy to clarify which
                               to remove any ambiguities in the policy.    systems will be password protected and
                               Management should incorporate explicit      which will be encrypted. The policy states
                               rules for determining if remote access is   that “all mobile computing devices
                               allowed, user training and accountability   including Blackberries and Palm Pilots must
                               measures in place to ensure that remote     be encrypted and/or password protected.”
                               use of PII does not result in bypassing     The FEC stated that laptops must be
                               management controls.                        encrypted and password protected while
                                                                           other devices, such as Blackberries and
                                                                           Palm Pilots, only need to be password
                                                                           protected. This is still, however, unclear in
                                                                           the policy.
                                                        28 

Finding                       Recommendation                              Status
Implement protection for      Implement a review process to ensure        Closed
personally identifiable       FEC users have effectively downloaded
information being             and installed the encryption software and
transported and/or stored     measures are in place to prevent possible
offsite                       circumvention of these safety
                              precautions.
                              Test and document results of all pre-       Closed
                              deployment testing performed by the
                              Information Technology Division to
                              ensure the selected encryption software
                              is compatible for FEC use.
Implement protections for     Complete the implementation of the USB      Closed
remote access to personally   two-factor authentication devices.
identifiable information


                              Update Commission mobile computing          Open
                              security policies to include procedures
                              for downloading and remote storage of       Management did not change the Mobile
                              data.                                       Computing Security Policy to include
                                                                          procedures for downloading and remote
                                                                          storage of data. Users are periodically
                                                                          reminded to save files to the network
                                                                          through emails and newsletters. The policy
                                                                          has not, however, changed.
Additional Agency             Implement encryption technology on          Closed
Requirements                  identified portable devices.
                                                                          Encryption technology has been installed on
                                                                          FEC laptops. Management provided the
                                                                          audit team with a comprehensive inventory
                                                                          of all laptops and Blackberry devices
                                                                          including whom it was issued to, model,
                                                                          serial, and barcode numbers, and if the
                                                                          device is password protected, encrypted,
                                                                          and has 2-factor authentication. We noted
                                                                          that there are several Apple laptops in use
                                                                          which do not have PGP encryption
                                                                          installed. However, the FEC stated that “no
                                                                          sensitive data is saved or accessed on the
                                                                          Apple laptops.” Further, FEC also stated
                                                                          that “Apple users were not issued property
                                                                          passes,” thereby restricting removal of the
                                                                          laptops from the FEC premises. OMB
                                                                          Memorandum M-06-16 allows this written
                                                                          permission. We verbally informed
                                                                          management that this approval should be in
                                                                          writing.
                              Implement password protection on            Closed
                              peripheral portable devices (Palm Pilots,
                              Blackberries, etc)


                                                       29 

Finding   Recommendation                              Status
          Implemented a timeout feature for           Open
          laptops/desktops which will timeout after
          30 minutes of inactivity. [No timeout       We reviewed the Blackberry server settings
          feature is in place for other peripheral    and noted that the timeout is set at 60
          devices.]                                   minutes instead of 30 minutes. In addition,
                                                      users have the ability to change the timeout
                                                      setting.
          Log all computer-readable data extracts,    Open
          as comprehensive implementation of
          encryption on all portable computers will   Management considers logging all computer
          ensure PII is adequately protected          readable data extracts as neither feasible nor
                                                      reasonable and therefore does not intend to
                                                      complete this recommendation.




                                   30 

                                             ATTACHMENT 3
                                              DEFINITIONS

Individual: A citizen of the United States or an alien lawfully admitted for permanent residence.

Information in Identifiable Form: Information in an IT system or online collection (a) that directly identifies an
individual (name, address, social security number or other identifying number or code, telephone number, email
address, etc.) or (b) by which an agency intends to identify specific individuals in conjunction with other data
elements (indirect identification). These data elements may include a combination of gender, race, birth date,
geographic indicator, and other descriptors.

Personally Identifiable Information (PII): Any piece of information that can potentially be used to uniquely
identify, contact, or locate a single person. Information such as social security numbers and banking information
are generally considered sensitive.

Privacy Impact Assessment (PIA): Analysis of how information is handled (a) to ensure that handling conforms
to applicable legal, regulatory, and policy requirements regarding privacy, (b) to determine risks and effects of
collecting, maintaining, and disseminating information in identifiable form in an electronic information system,
and (3) to examine and evaluate protections and alternative processes for handling information to mitigate
potential privacy risks.

Privacy Policy in Standardized Machine-Readable Format: A statement about site privacy practices written
in a standard computer language (not English text) that can be read automatically by a web browser.

System of Records (SOR): A group of any records under the control of any agency from which information is
retrieved by the name of the individual or by some identifying number, symbol, or other identifying particular
assigned to the individual.

System of Records Notice (SORN): A group of any records under the control of any agency from which
information is retrieved by the name of the individual or by some identifying number, symbol, or other identifying
particular assigned to the individual that is required to be published in the federal register in accordance with the
1974 Privacy Act.




                                                  31 

